S
                                                                         REPORT TO THE EMPLOYEE

U.S. Department of Labor
C
H
E                                                                        BENEFITS SECURITY
D
U                                                                        ADMINISTRATION
L
E

S                          Office of Inspector General—Office of Audit
C
H
E
D
U
L
E
D
R
A
F
T




                                                                         LIMITED-SCOPE AUDITS PROVIDE INADEQUATE
                                                                         PROTECTIONS TO RETIREMENT PLAN
                                                                         PARTICIPANTS




                                                                                            Date Issued:   September 30, 2014
                                                                                         Report Number:      05-14-005-12-121
U.S. Department of Labor                       September 2014
Office of Inspector General
Office of Audit                                LIMITED SCOPE AUDITS PROVIDE
                                               INADEQUATE PROTECTIONS TO
                                               RETIREMENT PLAN PARTICPANTS
BRIEFLY…
                                               WHAT OIG FOUND
Highlights of Report Number 05-14-005-12-
121, issued to the Assistant Secretary for     Assurances to plan participants have been
Employee Benefits Security.                    significantly eroded because EBSA has not
                                               provided the guidance and oversight needed
WHY READ THE REPORT                            to adequately protect more than $1 trillion of
                                               plan assets invested in complex trust
To ensure the integrity of retirement plan     arrangements and HTV assets held and
assets, most plans are required by federal     certified by custodians.
law to arrange for annual independent
audits. However, certain plans are not         We found that custodians certifying ERISA
required to receive a full-scope audit         plan assets under the limited-scope audit
because of an exemption in the law, putting    provision did not generally provide any
more than $1 trillion in complex trust         valuations services; instead, their role was
arrangements and hard-to-value assets          strictly limited to recordkeeping. We also
(HTV) at risk because limited-scope audits     found most plan administrators in our sample
do not provide adequate assurance of           did not make a determination of fair value of
assets’ existence or value.                    plan assets by way of a prudent
                                               investigation.
This report highlights changes EBSA needs
to make to improve protections to plan         EBSA has not consulted with federal or state
                                               regulators on this topic, nor has it conducted
participants for ERISA plans electing
                                               an assessment of regulators’ examinations
limited-scope audits for assets held and       of custodians. EBSA has not formalized into
certified by trustee and custodians.           regulatory guidance a requirement that plan
                                               administrators identify and adequately
WHY OIG CONDUCTED THE AUDIT                    support the fair value of hard-to-value
                                               investments nor implemented the 2006,
Because these assets are at risk, we           2008, and 2011 ERISA council
performed an audit to answer the following     recommendations on the same subject.
question: Has EBSA provided adequate
oversight of employee benefit plans electing   WHAT OIG RECOMMENDED
limited-scope audits for assets held and
certified by custodians?
                                               We recommended EBSA continue to seek
                                               repeal of the limited-scope audit provision and
READ THE FULL REPORT                           work within its existing authority to increase
                                               protections to participants.
To view the report, including the scope,
methodologies, and full agency response,       EBSA generally agreed with our findings and
go to:                                         recommendations. EBSA stated it believes
http://www.oig.dol.gov/public/reports/oa/201   there are interpretive and regulatory steps that
4/05­14-005-12-121.pdf                         it can take with respect to the report
                                               recommendations. EBSA also stated it has
                                               formed an inter-office task group to evaluate
                                               the OIG and ERISA Council
                                               recommendations.
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 Trustee and Custodial Holding
                                  Report No. 05-14-005-12-121
                                                        U.S. Department of Labor – Office of Inspector General




Table of Contents

Inspector General’s Report .......................................................................................... 1

RESULTS ....................................................................................................................... 3
         Objective — Has EBSA provided adequate oversight of employee
                     benefit plans electing limited-scope audits for assets
                     held and certified by custodians? ..................................................... 3
                EBSA has not provided the guidance and oversight needed to
                adequately protect more than one trillion dollars of plan assets invested
                in complex trust arrangements and HTV assets held and certified by
                custodians...................................................................................................... 3

                     Custodians Exercised Limited Direct Control and Accountability
                     Over the Assets They Held and Certified ................................................. 3
                     The oversight by federal and state regulators of HTV assets held
                     on behalf of plans may not provide sufficient assurance to allow
                     plans to elect limited-scope audits ............................................................ 6
                     Most plan administrators relying on certifications lacked a robust
                     analytical process to determine the fair market value of plan
                     assets ....................................................................................................... 8

CONCLUSION ................................................................................................................ 9

RECOMMENDATIONS ................................................................................................... 9

Appendices .................................................................................................................. 11
         Appendix A: Recommendations to EBSA on the Limited Scope
                     Audit Provision and HTV Investments ............................................ 13
         Appendix B: Objective, Scope, Methodology, and Criteria ................................. 17
         Appendix C: Acronyms and Abbreviations ......................................................... 21
         Appendix D: EBSA Response to Draft Report .................................................... 23
         Appendix E: Acknowledgements ........................................................................ 25




                                                                                          Trustee and Custodial Holding
                                                                                           Report No. 05-14-005-12-121
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 Trustee and Custodial Holding
                                  Report No. 05-14-005-12-121
                                                   U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                               Office of Inspector General
                                                       Washington, D.C. 20210




September 30, 2104

                                        Inspector General’s Report



Phyllis C. Borzi
Assistant Secretary
 for Employee Benefits Security
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

Retirement plans in the United States hold more than $6 trillion in assets and benefit
more than 129 million individual participants. 1 The Employee Retirement Income
Security Act of 1974 (ERISA) requires most large employee benefit plans to obtain
annual audits of their financial statements by an independent qualified public accountant
(IQPA). The Department of Labor’s (DOL) Employee Benefits Security Administration
(EBSA) has the responsibility to ensure these audits meet ERISA requirements.
ERISA, 2 however, allows plan administrators to elect a limited-scope audit in which plan
auditors do not audit plan assets held and certified by certain custodians. 3 The intent of
this provision was to exempt assets held by certain custodians from duplicative audits
because these custodians were already regulated and supervised by a state or federal
agency.

Limited-scope audits prevent plan auditors from providing assurances to plan
participants and beneficiaries regarding their plan’s financial statements. These
limited-scope audits weaken assurances to participants and may put hard-to-value
(HTV) assets of retirement plans at risk because they provide little to no assurance
regarding the existence or value of those assets. This lack of audit assurance puts into
question the financial health of more than $1 trillion of plan assets invested in complex
trust arrangements and HTV assets, a growing part of modern investment portfolios.

Due to these concerns, we performed an audit to answer the following question:

         Has EBSA provided adequate oversight of employee benefit plans
         electing limited-scope audits for assets held and certified by custodians?


1
  The term “participant” is used throughout this report to include plan participants and beneficiaries.
2
  ERISA §103(a)(3)(C).
3
  “Custodian” is used throughout this report to broadly encompass all of the types of institutions included in 29 USC
1023(a)(3)(C), specifically: “bank or similar institution or insurance carrier regulated and supervised and subject to
periodic examination by a State or Federal agency.”
                                                                                     Trustee and Custodial Holding
                                                           1                          Report No. 05-14-005-12-121
                                       U.S. Department of Labor – Office of Inspector General


We concluded assurances to plan participants have been significantly eroded because
EBSA has not provided the guidance and oversight needed to adequately protect the
HTV assets in employee benefit plans electing limited-scope audits. Overall, we found
only 9 percent of the plans electing limited-scope audits in our sample had a robust
process to verify and value their plan assets, custodians exercised limited direct control
and accountability over assets they held and certified, and little was publicly known
about the oversight of state and federal regulators.

Despite EBSA’s efforts, protections have decreased over time for plan participants.
EBSA’s improvement efforts have included working with the American Institute of
Certified Public Accountants (AICPA) to establish an audit quality center that provides
guidance and education, redesigning its targeting methods to identify and correct
substandard plan audits, and providing training and outreach activities for plan auditors.
However, these efforts have been offset by increased numbers of limited-scope audits
and a continuing lack of legal authority over plan auditors and custodians.

Since 1984, we have recommended EBSA seek legislative repeal of limited-scope
audits. EBSA has supported this recommendation and made several proposals to
Congress to repeal the limited-scope audit provision. Despite these efforts, the provision
has not been repealed. Also since 1984, we have recommended EBSA seek a
legislative change to ERISA to allow EBSA to oversee IQPAs directly. With this
authority, EBSA could better prevent IQPAs from performing audits that do not meet
professional standards. EBSA has agreed with this recommendation and made several
proposals to Congress to obtain this authority, none of which have been successful.

Despite its lack of legal authority over certain aspects of the process, EBSA can do
more to protect plan participants from the lack of assurances resulting from
limited-scope audits. We recommend EBSA: continue to seek repeal of the
limited-scope audit provision, but until the provision is repealed, work within its existing
authority to increase protections to participants by collaborating with federal and state
regulators to determine the level of examination and supervision they exercise for
ERISA plan assets certified and held by custodians; determine whether it can issue
guidance on the level or form of supervision and examination by federal and state
regulators needed to provide appropriate assurances for ERISA assets held in trust;
and provide additional formal guidance to plan administrators to identify and adequately
support the fair value of plan assets.

EBSA RESPONSE

In response, EBSA generally agreed with the findings and recommendations in the
report. EBSA stated a more comprehensive legislative solution is needed to address the
problems. EBSA also believed there are interpretive and regulatory steps that it can
take with respect to the report recommendations and formed an inter-office task group
to evaluate recommendations received in this area from the OIG and the ERISA
Advisory Council. EBSA’s full response appears in Appendix D.

                                                               Trustee and Custodial Holding
                                             2                  Report No. 05-14-005-12-121
                                                 U.S. Department of Labor – Office of Inspector General


RESULTS

Objective — Has EBSA provided adequate oversight of employee benefit plans
            electing limited-scope audits for assets held and certified by
            custodians?
EBSA has not provided the guidance and oversight needed to adequately protect more
than $1 trillion of plan assets invested in complex trust arrangements and HTV assets
held and certified by custodians.

Plans may elect to perform only a limited-scope audit on their assets if the assets are
held by a qualifying custodian, which under ERISA could be a “bank or similar institution
or insurance carrier regulated and supervised and subject to periodic examination by a
State or Federal agency.” 4

We evaluated the path that plan administrators must navigate to elect limited-scope
audits. This process, which we call the “chain of assurances,” relies on three parties:
custodians, federal and state regulators, and plan administrators. Custodians must
maintain proper accountability and controls over the assets they hold and certify;
regulators must provide sufficient supervision over those custodians; and plan
administrators must employ an adequate analytical process for the valuation of HTV
assets certified by custodians. In order to maintain its integrity, every link in the chain of
assurances must firmly connect to those on either side.

We found that the limited-scope audit provision has significantly weakened the chain of
assurances for the 65,000 plans representing more than 49 million participants and
approximately $2.7 trillion in assets, which elect not to perform full audits of their assets.

Custodians Exercised Limited Direct Control and Accountability Over the Assets They
Held and Certified

Although EBSA has limited control over their practices, custodians are, nonetheless, a
key link in the chain of assurances. EBSA has the authority to prescribe regulations
necessary to carry out its responsibilities under Title I of ERISA, but has not to date
determined whether it can define the terms “plan assets held” and “regulated and
supervised and subject to periodic examination by a State or Federal agency” for the
limited-scope audit exemption. We reviewed custodians’ practices to determine if their
internal control systems potentially mitigated some of the effects of the limited-scope
audit exemption. We concluded they did not.

Overall, we found most custodians in our sample performed only pass-through
recordkeeping services for assets they held. In our sample of 44 plans, 5 we found

4
 29 USC 1023(a)(3)(C),
5
 We drew a statistical sample of 44 defined-benefit plans holding HTV assets and electing a limited-scope audit. For
our sample, we reviewed the underlying trust agreements between the plans and the custodians to determine if the
custodians were responsible for providing valuation services or merely custodial, recordkeeping services.
                                                                                Trustee and Custodial Holding
                                                         3                       Report No. 05-14-005-12-121
                                              U.S. Department of Labor – Office of Inspector General


82 percent of custodians certifying ERISA plan assets under the limited-scope audit
exemption generally acted as directed custodians or non-discretionary trustees, which
means their role was strictly limited to recordkeeping. Contractual arrangements
between custodians and plan administrators often explicitly excluded valuation services.
As a result, custodians did not provide independent statements of existence or value.
Instead, custodians passed through reports of values for HTV assets, frequently directly
from the investment vehicle itself. Custodians then certified the assets, adding little
legitimacy to the reported figures, and then the same values passed on to plan
administrators, who in most cases accepted them as reported and performed little or no
further analysis or validation.

When ERISA was first enacted in 1974, plans invested mostly in traditional financial
instruments, such as U.S. government securities and publicly traded stocks and bonds.
These investments, printed on paper at the time, were physically held by a custodian in
its vault. In 1974, plan auditors seeking to confirm the plan actually owned 100 shares
of IBM stock could easily gain access to the custodian’s vault and count the certificates.
Later, plan auditors, having counted the paper stock certificates, could find that day’s
market price for the stock and calculate an exact value. 6 As a result, the auditors’ report
gave assurances as to the existence of the stock certificates, and the financial markets
provided an accurate current value for the stocks.

The basis for the limited-scope audit exemption was that plan assets were generally
easy to verify and had readily available market values. Underpinning this assumption
was the fact that only custodians regulated (and consequently, audited) by a state or
federal regulator were authorized to certify plan assets. Moreover, an independent
auditor audited those same custodians each year. In effect, ERISA presumed a chain of
assurance, safeguarding plan assets, was present. For example, a bank trust
department could take custody of a paper stock certificate on behalf of a plan. The
bank’s auditors would regularly verify the existence of this certificate by actually
counting it. The bank’s regulators would also audit the bank, and likewise potentially
verify the existence of the stock certificate, or at the very least, prescribe certain
protective measures (“internal controls”) the bank had to put in place. Stocks could
easily be valued by finding their current price on a stock exchange. As a result, ERISA
presumed since there were sufficient safeguards in place in the custodian’s
environment, more auditing by the plan was not necessary.

Since 1974, the investment environment has radically changed. Stocks and bonds are
no longer printed on paper. The vast majority of financial instruments exist only as a
diffuse collection of bits and bytes in a vast array of computers around the world.
Physical custody is no longer the model relied upon to prove existence. Even the bits
and bytes do not truly reside, for the most part, on the custodian’s own computer
network. Instead, the custodian receives reports from various external parties who
perform the computer processing necessary to effect trades and “hold” digital records of

6
 On December 31, 1974, 100 shares of IBM stock were worth $16,800. On August 15, 2014, those shares would be
worth about $299,800.
                                                                          Trustee and Custodial Holding
                                                     4                     Report No. 05-14-005-12-121
                                               U.S. Department of Labor – Office of Inspector General


ownership. Plan auditors cannot walk into a computer room some place in the world and
demand to count the number of bits and bytes that represent the plan’s assets; instead,
the electronic reports that present the inventory of assets must act as evidence of their
own existence.

Moreover, plans have increasingly shifted assets from traditional investments into
hard-to-value (HTV) assets and non-traditional investments, such as hedge funds,
private equity funds, and venture capital funds, among others. Certain types of
investment vehicles add another layer of complexity; entities such as Master Trust
Investment Accounts (MTIA), Common/Collective Trusts (CCT), and Pooled Separate
Accounts (PSA) may not be required to receive an audit or even file an annual form
5500 with EBSA. These entities can also invest in other non-publicly traded entities. For
example, a MTIA can invest in a CCT, which is further invested in hedge funds and
limited
partnerships, further increasing the
difficulty of valuing the investment.           Table 1: 2012 Form 5500-Direct Filing
Table 1 provides a summary of the                           Entity Summary
total dollars invested in these types of    Type of        5500        Audit      Dollars
entities in filing year 2012. Of the         Entity Required? Required? (Billions)
$2.7 trillion in ERISA plan assets
eligible for the limited-scope audit        MTIA           Yes          No         $731
exemption, approximately $1.1 trillion      PSA             No          No         $128
were invested in complex                    CCT             No          No         $281
arrangements in which an annual audit                                      Total  $1,140
and/or a form 5500 filing were not
required. Further illustrating the challenges in auditing these types of investments, GAO
recently reported the complexity of large partnership structures, some of which are held
by hedge funds and other HTV investments, such as those in table 1, makes it difficult
for the Internal Revenue Service to audit them. 7

OIG’s September 2013 audit 8 found EBSA needed to take further action to increase
protections for participants and beneficiaries of plans investing in hard-to-value
alternative investments. We found EBSA had not formalized into regulatory guidance a
requirement that plan administrators identify and adequately support the fair value of
HTV investments nor implemented the 2006, 2008, and 2011 ERISA council
recommendations on the same subject.

The result of this change in the investment environment is that custodians no longer
hold physical proof of ownership in their vault, relying instead on reports transmitted to
them by third parties. Instead of maintaining custody of plan assets in the traditional
physical sense as envisioned by ERISA, custodians have now adopted the role of the
record keeper. Custodians, in their certifications, do not vouch for the existence or value

7
  Large Partnerships: With Growing Number of Partnerships, IRS Needs to Improve Audit Efficiency (GAO,
September 2014).
8
  EBSA Needs to Provide Additional Guidance and Oversight to ERISA Plans Holding Hard-to-Value Alternative
Investments (Report No. 09-13-001-12-121, September 30, 2013).
                                                                            Trustee and Custodial Holding
                                                       5                     Report No. 05-14-005-12-121
                                                 U.S. Department of Labor – Office of Inspector General


of assets they hold, but instead, act as pass-throughs. Assets held in electronic form by
a third party clearinghouse, such as the Depository Trust Company, are reported to the
custodian electronically, and the custodian, in turn, certifies the same data to the plan
administrator. The custodian merely passes along data it received and recorded in its
books and records from an external source, while certifying to plan administrators only
that its records are complete and accurate.

The 2010 ERISA Advisory Council recommended that the Secretary of Labor use
regulatory authority to clarify the limited-scope audit exemption requirements. EBSA
however, has not yet formally evaluated the feasibility of implementing the ERISA
Advisory Council or the OIG’s 2012 9 recommendations to clarify the requirements
needed to hold and certify plan assets. In 2014, however, EBSA formed a working
group to evaluate possible regulatory or interpretive guidance options for clarifying
regulations interpreting the limited-scope audit exemption. The group plans to forward
its recommendations to the Assistant Secretary by December 31, 2014.

The oversight by federal and state regulators of HTV assets held on behalf of plans may
not provide sufficient assurance to allow plans to elect limited-scope audits

It is unclear whether regulation and examination by state and federal agencies charged
with bank and insurance company supervision provide assurance to participants
because regulators, at least at the federal level, do not make public the results of their
examination. This leaves EBSA and the public with no way of knowing when
examinations reveal problems with custodians. EBSA has not consulted with federal or
state regulators on this topic, nor has it conducted an assessment of regulators’
examinations of custodians.

ERISA allows the limited-scope audit exemption for assets held by a “bank or similar
institution or insurance carrier which is regulated and supervised, and subject to
periodic examination by a State or Federal agency.” 10 The intent of this provision was to
exempt assets held by custodians regulated by federal or state agencies from
duplicative detailed audits. The intent of the limited-scope audit provision of ERISA
appears to be that the regulation and examination of custodians by a federal or state
regulator provide a set of controls sufficient to make additional auditing redundant.
However, given the change in the investment environment described earlier in our
report, two factors act together to undermine this intention:

      •    The lack of transparency and communication by regulators undermines
           assurances their supervision might otherwise provide, and

      •    EBSA has not collaborated with state and federal regulators to determine
           the nature of their oversight over ERISA plan assets nor does it have
           authority to access results of the federal examinations of these

9
    Changes are Still Needed in the ERISA Audit Process (Report No. 09-12-002-12-121, September 2012).
10
     29 USC 1023(a)(3)(C)
                                                                              Trustee and Custodial Holding
                                                         6                     Report No. 05-14-005-12-121
                                               U.S. Department of Labor – Office of Inspector General


         custodians. In a report issued in 1989, 11 we recommended EBSA work
         with regulators to determine how annual audit coverage could be provided
         to employee plan assets held in trust.

We interviewed officials from all three major federal bank regulators – the Federal
Reserve Board (FRB), Federal Deposit Insurance Corporation (FDIC), and the Office of
the Comptroller of the Currency (OCC), as well as state banking and insurance
regulators covering 73 percent of the HTV assets in our sample. Our review of
regulators’ practices found:

     •   Regulators employ inconsistent degrees of compliance review of
         custodians certifying ERISA plan assets;

     •   The ERISA trust departments of custodians and the plan assets they hold
         are not always audited on an annual basis;

     •   Testing might not extend to all ERISA plans or all plan assets held and
         certified by custodians, and even though some regulators may test ERISA
         assets on a sample basis, the sample may not be statistically
         representative of the overall population of assets, and therefore may not
         provide the level of assurance that a statistical sample would;

     •   Regulators, such as the OCC, FDIC, and FRB, do not review the valuation
         procedures of custodians when those institutions have no contractual
         obligation to determine the fair value of plan assets. In our sample of
         44 plans, regulators could have reviewed the valuation procedures of only
         18 percent of custodians they examined; and

     •   Professional industry guidance for internal audits of these custodians does
         not consider ERISA requirements.

Notably, one of the state banking regulators the OIG interviewed stated its examinations
were not a substitute for a plan’s annual audit by an independent auditor, and that the
regulator did not typically examine ERISA plan assets held by banks unless they were
aware of an issue with those assets.

Although it has no direct control over regulators, EBSA has the authority under ERISA
§505 to prescribe regulations the Secretary finds necessary or appropriate to carry out
the provisions of Title I of the statute, including defining accounting, technical, and trade
terms. EBSA has not, to date, determined whether it can define the terms “plan assets
held” and “regulated and supervised and subject to periodic examination by a State or
Federal agency” for the limited-scope audit exemption.


11
  Changes are Needed in the ERISA Audit Process to Increase Protections for Employee Benefit Plan Participants
(Report No. 09-90-001-12-001, November 1989).
                                                                            Trustee and Custodial Holding
                                                       7                     Report No. 05-14-005-12-121
                                      U.S. Department of Labor – Office of Inspector General


To require audit coverage of these assets in banks or other institutions would not be
duplicative and would provide increased scrutiny and additional protection of plan
assets. Moreover, EBSA has not established channels of communication with regulators
so as to be better aware of their examination processes and how their findings could be
used by EBSA in its oversight role.

As a result, audit coverage of more than $1 trillion invested in complex trust
arrangements and HTV ERISA plan assets held in trust by custodians may be
inadequate because very little is known about the supervision of – and consequently
assurances provided by – federal and state regulators over assets held and certified by
custodians.

Most plan administrators relying on certifications lacked a robust analytical process to
determine the fair market value of plan assets

We found 84 percent of plan administrators in our sample either failed to obtain an
independent valuation of their HTV assets and/or did not have a robust analytical
process to arrive at the fair market value of those assets. In 20 percent of cases in our
sample, plan administrators accepted HTV investment statements clearly marked
“unaudited” and reported those values as fair market without performing any further
analysis.

We also analyzed our sample of 44 plans to score their processes for determining the
fair value of HTV assets. We scored plans as follows:

   •   Low: plan lacked an analytical process           Figure 1: Scoring Plan
       for determining the fair value of HTV             Valuation Processes
       assets, and or relied on estimated or                           9%
       unaudited client or financial
       statements.
                                                  39%                            High
   •   Medium: plan had an established                                              Medium
       process for evaluating HTV assets, but
       the process was not always followed                                       Low
       or the plan relied on estimated or
                                                                              52%
       unaudited client or financial
       statements.

   •   High: plan demonstrated an analytical process for determining the fair
       value of plan investments, received an independent appraisal or valuation,
       or provided audited investment statements at fair value for hard-to-value
       plan assets.

ERISA requires plan administrators to present plan assets at fair value in their annual
report and financial statements. The U.S. Court of Appeals for the 5th Circuit,
interpreting ERISA, has opined that when reporting on fair value:
                                                              Trustee and Custodial Holding
                                             8                 Report No. 05-14-005-12-121
                                                        U.S. Department of Labor – Office of Inspector General



            “A pure heart and an empty head are not enough…fiduciaries will carry
            their burden to prove that adequate consideration was paid by showing
            that they arrived at their determination of (FMV) by way of a prudent
            investigation in the circumstances then prevailing.” 12

EBSA has provided some guidance interpreting administrators’ responsibility to value
plan assets, but this guidance is insufficient, as evidenced by the fact that only
9 percent of the plans in our sample had a “prudent investigation” process (see
Figure 1).

The OIG, ERISA Advisory Council, GAO, and AICPA have all recommended EBSA
provide guidance to fiduciaries of employee benefit plans for valuing HTV investments.
EBSA has not yet implemented these recommendations. As a result, a significant
proportion of plans holding HTV assets have no authoritative independent assurances
of existence and may not be reported at an accurate fair value, potentially undermining
the value of assets available to pay future pension benefits.

CONCLUSION

Auditors and federal and state regulators continue to audit banks and other custodians
and as a result, custodians continue to certify plan assets, but the chain of assurance in
the case of more than $1 trillion in assets 13 invested in complex trust arrangements and
other HTV assets has been broken. By definition, these investments are hard to value.
Furthermore, there is no longer a clear definition of the term “holding an asset.”
Consequently, certification no longer carries with it the power of physical custody and
thorough audit and oversight. A custodian’s certification may be nothing more than a
pass-through electronic report from a third party of asset inventories and values over
which the custodian has no real control. That said, a certification by a custodian may act
as a stamp of validation to plan administrators, who are not aware of the true nature of
the certification in this situation.

The net result of these changes has been decreased transparency and accountability
over plan assets and, ultimately, decreased assurances about the financial health of
retirement plans to their participants. As the Assistant Secretary for Employee Benefit
Security succinctly put it in a 2012 speech, “the limited-scope audit is practically
useless.”

RECOMMENDATIONS

We recommend the Assistant Secretary for Employee Benefits Security:

       1. Seek repeal of the limited-scope audit provision.

12                                                 th
     Donovan v. Cunningham, 716 F.2d 1455 (5 Cir. 1983).
13
     As of filing year 2012, the latest for which figures are available.
                                                                                Trustee and Custodial Holding
                                                                9                Report No. 05-14-005-12-121
                                      U.S. Department of Labor – Office of Inspector General



   2. Provide additional formal guidance to plan administrators to identify and
      adequately support the fair value of plan assets.

   3. Establish a timetable to evaluate the feasibility of ERISA Advisory Council
      recommendations on limited scope audits.

   4. Collaborate with federal and state regulators to determine the level of
      examination and supervision they exercise for ERISA plans assets
      certified and held by custodians by:

          a. Establishing memoranda of understanding with, at minimum,
             federal regulators to share information on regulatory and
             examination practices and evaluating those practices; and

          b. Obtaining access to reports of examination by federal and state
             regulators to evaluate audit assurances and identify areas of
             concern for ERISA plan assets held and certified by qualified
             custodians.

   5. Determine whether EBSA can issue guidance on the level or form of
      supervision and examination by federal and state regulators needed to
      provide appropriate assurances for ERISA assets held in trust.

We appreciate the cooperation and courtesies EBSA personnel extended to the OIG
during this audit. OIG personnel who made major contributions to this report are listed in
Appendix E.




Elliot P. Lewis
Assistant Inspector General
 For Audit




                                                              Trustee and Custodial Holding
                                           10                  Report No. 05-14-005-12-121
             U.S. Department of Labor – Office of Inspector General




Appendices




                                     Trustee and Custodial Holding
                  11                  Report No. 05-14-005-12-121
        U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Trustee and Custodial Holding
             12                  Report No. 05-14-005-12-121
                                                                          U.S. Department of Labor – Office of Inspector General


                                                                                                                   Appendix A
Recommendations to EBSA on the Limited Scope Audit Provision and HTV Investments


                  Recommendations to EBSA on the Limited Scope Provision and HTV Investments

Agency     Date           Report                       Recommendation                                    EBSA Actions
OIG      September   Report Number:       Improve current protections under current         In 2014, EBSA formed an inter-office
         2013        09-13-001-12-121     authority by:                                     working group to evaluate possible
                     http://www.oig.dol                                                     regulatory or interpretive guidance options
                     .gov/public/report   Providing guidance to plan administrators to      for clarifying the limited scope audit
                     s/oa/2013/09-13-     identify and adequately support the fair market   regulation at 29 CFR 2520.103-8 and
                     001-12-121.pdf       value of hard-to-value plan assets.               forward its recommendations to the
                                                                                            Assistant Secretary by
                                        Evaluating and determining the feasibility of       December 31, 2014.
                                        ERISA Advisory Council recommendations on
                                        hard-to-value alternative investments.
OIG      September   Report Number:     Renew efforts to seek repeal of limited-scope       EBSA has made multiple efforts, however
         2012        09-12-002-12-121 audit exemption.                                      Congress has not acted upon
                     http://www.oig.dol                                                     recommended legislation.
                     .gov/public/report
                     s/oa/2012/09-12-
                     002-12-121.pdf
OIG      September   Report Number:     Improve current protections under current           In 2014, EBSA formed an inter-office
         2012        09-12-002-12-121 authority to:                                         working group to evaluate possible
                     http://www.oig.dol                                                     regulatory or interpretive guidance options
                     .gov/public/report    a. Clarify the requirements needed to hold       for clarifying the limited scope audit
                     s/oa/2012/09-12-          and certify plan assets for limited scope    regulation at 29 CFR 2520.103-8 and
                     002-12-121.pdf            audits.                                      forward its recommendations to the
                                                                                            Assistant Secretary by December 31,
                                             b. Provide guidance to plan administrators     2014.
                                                to identify and adequately support
                                                current value of plan assets in
                                                limited-scope audits.



                                                                                                   Trustee and Custodial Holding
                                                                   13                               Report No. 05-14-005-12-121
                                                                               U.S. Department of Labor – Office of Inspector General


                                              c. Evaluate the recommendations from the
                                                 ERISA Advisory Council on limited
                                                 scope audits.
OIG        September   Report Number:     Improve Form 5500 data collection, analysis,            EBSA has initiated a strategic project with
           2013        09-13-001-12-121 and targeting of plans with hard-to-value                 the Internal Revenue Service and the
                       http://www.oig.dol investments.                                            Pension Benefit Guaranty Corporation to
                       .gov/public/report                                                         revise the tri-agency Form 5500 Annual
                       s/oa/2012/09-12-                                                           Return/Report. This milestone has been
                       002-12-121.pdf                                                             added to the Spring 2014 Semi-Annual
                                                                                                  Regulatory Agenda as a Long-term Action.
                                                                                                  The anticipated next action is publication
                                                                                                  of a Notice of Proposed Form Changes
                                                                                                  and NPRM by approximately July 2015.
2010       2010        http://www.dol.go    The Department should clarify the kinds of            In February of 2014, EBSA formed an
ERISA                  v/ebsa/publication   entities that are qualified to issue certifications   inter-office task group to evaluate
Advisory               s/2010ACreport2.     under existing regulations and guidance and           recommendations from the OIG and from
Council                html                 reiterate that only qualified entities may issue      the ERISA Advisory Council in response to
                                            certifications.                                       the September 2012 and September 2013
                                                                                                  audit report on EBSA oversight of ERISA
                                                                                                  plan audits and plans holding
                                                                                                  hard-to-value alternative investments.
2010       2010        http://www.dol.go    The Department should amend the                       In February of 2014, EBSA formed an
ERISA                  v/ebsa/publication   limited-scope audit regulations to require that       inter-office task group to evaluate
Advisory               s/2010ACreport2.     the certification of investment information           recommendations from the OIG and the
Council                html                 include a disclaimer that investment values           ERISA Advisory Council in response to the
                                            may not have been subject to independent              September 2012 and September 2013
                                            verification of fair value by the certifier.          audit report on EBSA oversight of ERISA
                                                                                                  plan audits and plans holding
                                                                                                  hard-to-value alternative investments.
2010       2010        http://www.dol.go    The Department should require Plan                    In February of 2014, EBSA formed an
ERISA                  v/ebsa/publication   administrators to include any certification           inter-office task group to evaluate
Advisory               s/2010ACreport2.     issued in connection with a limited scope audit       recommendations from the OIG and the
Council                html                 in the Plan's Form 5500 filing or other annual        ERISA Advisory Council in response to the
                                            report.                                               September 2012 and September 2013
                                                                                                  audit report on EBSA oversight of ERISA
                                                                                                  plan audits and plans holding hard-to-

                                                                                                         Trustee and Custodial Holding
                                                                       14                                 Report No. 05-14-005-12-121
                                                                         U.S. Department of Labor – Office of Inspector General


                                                                                          value alternative investments.
2010       2010   http://www.dol.go    The Department should issue informal               In February of 2014, EBSA formed an
ERISA             v/ebsa/publication   education materials targeted to Plan sponsors      inter-office task group to evaluate
Advisory          s/2010ACreport2.     and Plan auditors that would assist them in        recommendations from the OIG and the
Council           html                 understanding their respective obligations with    ERISA Advisory Council in response to the
                                       respect to limited scope audits.                   September 2012 and September 2013
                                                                                          audit report on EBSA oversight of ERISA
                                                                                          plan audits and plans holding hard-to-
                                                                                          value alternative investments.
2008       2008   http://www.dol.go    The Department should issue guidance to a          In February of 2014, EBSA formed an
ERISA             v/ebsa/publication   plan fiduciary’s responsibility to evaluate        inter-office task group to evaluate
Advisory          s/2008ACreport1.     alternative investments as an investment           recommendations from the OIG and the
Council           html                 vehicle and the fiduciary’s responsibility for     ERISA Advisory Council in response to the
                                       valuing such investment assets                     September 2012 and September 2013
                                                                                          audit report on EBSA oversight of ERISA
                                                                                          plan audits and plans holding hard-to-
                                                                                          value alternative investments.
2006       2006   http://www.dol.go    The Department of Labor should publish             In February of 2014, EBSA formed an
ERISA             v/ebsa/publication   guidance which expresses the unique features       inter-office task group to evaluate
Advisory          s/AC_1106A_rep       of hedge funds and matters for consideration in    recommendations from the OIG and the
Council           ort.html             their adoption for use by qualified plans as a     ERISA Advisory Council in response to the
                                       matter of procedural prudence                      September 2012 and September 2013
                                                                                          audit report on EBSA oversight of ERISA
                                                                                          plan audits and plans holding hard-to-
                                                                                          value alternative investments.




                                                                                                 Trustee and Custodial Holding
                                                                 15                               Report No. 05-14-005-12-121
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 Trustee and Custodial Holding
              16                  Report No. 05-14-005-12-121
                                    U.S. Department of Labor – Office of Inspector General


                                                                            Appendix B
Objective, Scope, Methodology, and Criteria

Objective

We conducted an audit to answer the following question:

Has EBSA provided adequate oversight of employee benefit plans electing
limited-scope audits for assets held and certified by financial institutions? Specifically
we sought to determine:

   1. To what extent did qualifying custodians exert accountability and
      control over the assets they certify?

   2. What is known about the supervision and examinations conducted by
      State or Federal agencies as it pertains to these hard-to-value
      alternative assets held on behalf of employee benefit plans?

   3. What process did plan administrators use when relying on custodians’
      certifications and determining that the information could be used to
      satisfy the administrator’s obligation to report the fair value of the
      assets on the plan’s annual report?

To answer these questions, we reviewed accounting and pension industry
professional standards, applicable regulations, and EBSA policies and procedures.
We also reviewed a sample of ERISA plans with HTV investments from the 2011
Form 5500 filing year.

Scope

Our scope included all EBSA policies and procedures pertaining to audit quality
reviews and trustee and custodial holding of ERISA plan assets for limited-scope
audits. Additionally, for plan Filing Year 2011, we reviewed responses for
investment information from 44 employee benefit plans with assets with 20 percent
or more of plan assets invested in HTV alternative investments. We reviewed prior
EBSA and GAO studies on alternative investments. Fieldwork was conducted at
EBSA headquarters in Washington, DC.
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.



                                                            Trustee and Custodial Holding
                                          17                 Report No. 05-14-005-12-121
                                      U.S. Department of Labor – Office of Inspector General


Methodology

To accomplish our audit, we reviewed professional standards, applicable banking
regulations, and EBSA policies and procedures. We also interviewed officials from
EBSA, the AICPA, Federal and State Banking Regulators, and reviewed prior ERISA
Advisory Council reports to gain an understanding of standards for the supervision
and examination of ERISA assets certified and held in trust by qualifying custodians.

In planning and performing our audit, we considered EBSA’s internal controls that
were relevant to our audit objective. We confirmed our understanding of these
controls through interviews, obtaining, and reviewing EBSA reviews, policies,
procedures, and enforcement actions. Our consideration of internal controls
relevant to our audit objective would not necessarily disclose all matters that might
be significant deficiencies. Because of inherent limitations in internal controls,
misstatements or noncompliance may nevertheless occur and not be detected.

We selected a stratified random sample of 55 (we received responses from
44 plans) out of 2,617 Defined Benefit plans with 20 percent or more of plan
assets invested in HTV alternative investments. These 44 sampled plans had
end-of-year total HTV alternative investments of $87.5 billion. For these plans, we
contacted plan management to obtain documentation to support the prudence and
fair value assumptions of the plan’s HTV alternative investments. We also
reviewed trustee and custodial service agreements to determine what role the
qualified custodian played in determining the value of plan assets held for
certification purposes under the limited scope audit provisions.

For sampled plans, we reviewed HTV investments as defined by the Financial
Accounting Standards Board (FASB), and determined by the OIG to total more
than 5 percent of plan assets. For these investments we reviewed documentation
to determine plan management’s process for determining the fair market value of
these investments, and where applicable, the certifying custodian’s service
agreements for the evaluation of this process. We did not extrapolate our sampled
testing of plans with HTV alternative investments due to limitations in Form 5500
in capturing information on HTV investment reporting.

To achieve the audit’s objective, we relied on computer-processed data from the
ERISA Filing Acceptance System II (EFAST2) Form 5500 Series plan filings. We
assessed the reliability of this data by: (1) performing analytical tests of data
elements, (2) reviewing prior OIG and GAO reports on the EFAST2 system, and
(3) tracing selected data elements to plan documents. Based on these tests and
assessments, we concluded the data was sufficiently reliable for us to use in
meeting the audit’s objective.




                                                              Trustee and Custodial Holding
                                            18                 Report No. 05-14-005-12-121
                                      U.S. Department of Labor – Office of Inspector General


Criteria

We used the following criteria to accomplish our audit:

   •   Title I of the Employee Retirement Income Security Act of 1974

   •   The Pension Protection Act of 2006

   •   29 C.F.R. § 2550.404a- Prudent Man Standard for fiduciaries managing
       plan investments

   •   29 C.F.R § 2510.3-21- Definition of a Fiduciary

   •   The Financial Accounting Standards Board Statement No. 157, Fair Value
       Measurements (FASB Statement No. 157)




                                                              Trustee and Custodial Holding
                                            19                 Report No. 05-14-005-12-121
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 Trustee and Custodial Holding
              20                  Report No. 05-14-005-12-121
                                   U.S. Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms and Abbreviations

AICPA      American Institute of Certified Public Accountants

CCT        Common Collective Trust

DOL        Department of Labor

EBSA       Employee Benefits Security Administration

EFAST2     ERISA Filing Acceptance System II

ERISA      Employee Retirement Income Security Act of 1974

FASB       Financial Accounting Standards Board

FDIC       Federal Deposit Insurance Corporation

FRB        Federal Reserve Bank

GAO        Government Accountability Office

HTV        Hard-to-value

IQPA       Independent qualified public accountant

MTIA       Master Trust Investment Account

OCC        Office of the Comptroller of the Currency

OIG        Office of Inspector General

PSA        Pooled Separate Account




                                                           Trustee and Custodial Holding
                                         21                 Report No. 05-14-005-12-121
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 Trustee and Custodial Holding
              22                  Report No. 05-14-005-12-121
                                U.S. Department of Labor – Office of Inspector General


                                                                        Appendix D
EBSA Response to Draft Report




                                                        Trustee and Custodial Holding
                                     23                  Report No. 05-14-005-12-121
U.S. Department of Labor – Office of Inspector General




                        Trustee and Custodial Holding
     24                  Report No. 05-14-005-12-121
                                     U.S. Department of Labor – Office of Inspector General


                                                                             Appendix E
Acknowledgements

Key contributors to this report were Nicholas Christopher (Audit Director), Jason Jelen
(Audit Manager), Richard Donna Jr., Lewis Leung, Patrick Trager, Steve Chiang, Tim
Kerschen, Elizabeth Garcia, Steve Witherspoon, and Mary Lou Casazza.




                                                             Trustee and Custodial Holding
                                           25                 Report No. 05-14-005-12-121
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
